BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae Senator Rand Paul,
Senator Ron Johnson and Representative Jim Baird
Supporting Petitioners in 20-1203, Moose Jooce, et al.
v. Food & Drug Administration, et al, was sent via
Next Day Service to the U.S. Supreme Court, and via
Next Day and e-mail service to the following parties
listed below, this 2nd day of April 2021:
Damien Michael Schiff
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
(916) 419-7111
schiff@p acificle gal. org
Counsel for Petitioners
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Jeffrey M. Harris
Counsel of Record
Tiffany H. Bates
Daniel Shapiro
Antonin Scalia Law School
Administrative Law Clinic
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
jeff@consovoymccarthy.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 2, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

ud ;;Jt

dtJ'J-/

Jyi,_ ~ ~ /

Notary Public

'

[seal]

JOHN D. GALLAGHER
,,,Ltry Public, State of Ohio
My Commission Expires
r:ebru:iry 14, 2023

